No. 20-________
IN THE SUPREME COURT OF THE UNITED STATES
_________________________________________________________
_________________________________________________________
FABIO EVELIO GOMEZ,
Petitioner,
-vSTATE OF ARIZONA,

Respondent.

__________________________________________________________
__________________________________________________________
MOTION FOR EXTENSION OF TIME TO FILE
PETITION FOR WRIT OF CERTIORARI TO
THE SUPREME COURT OF ARIZONA
__________________________________________________________
__________________________________________________________

DAVID ALAN DARBY
LAW OFFICE OF DAVID ALAN DARBY
P.O. Box 33534
Juneau, AK 99803

JOHN R. MILLS
Counsel of Record
PHILLIPS BLACK, INC.
1721 Broadway, Suite 201
Oakland, CA 94612
(888) 532-0897
j.mills@phillipsblack.org
COUNSEL FOR PETITIONER

No. 20-________
IN THE SUPREME COURT OF THE UNITED STATES
_________________________________________________________
_________________________________________________________
FABIO EVELIO GOMEZ,
Petitioner,
-vSTATE OF ARIZONA,

Respondent.

__________________________________________________________
__________________________________________________________
MOTION FOR EXTENSION OF TIME TO FILE
PETITION FOR WRIT OF CERTIORARI TO
THE SUPREME COURT OF ARIZONA
__________________________________________________________
__________________________________________________________

TO THE HONORABLE ELENA KAGAN, Associate Justice of the Supreme Court of the
United States, and Circuit Justice for the United States Court of Appeals for the Ninth Circuit:
COMES NOW the Petitioner, Fabio Evelio Gomez, by and through undersigned counsel,
and pursuant to 28 U.S.C. § 1257(a) and Supreme Court Rule 13.5, respectfully requests an
extension of time of 46 days within which to file his Petition for Writ of Certiorari to the Supreme
Court Arizona. The decisions he seeks to have reviewed are the decision and order of the Superior
Court of Arizona, Maricopa County respectively dated December 5, 2018 and April 14, 2020and
the order of the Supreme Court of Arizona declining to review the decision on July 30, 2021.

The case concerns Mr. Gomez’s death sentence and whether Arizona complied with both
the requirements of Simmons v. South Carolina, 512 U.S. 154 (1994) and with this Court’s
requirement to provide the same or greater retroactive review as required by the Supremacy
Clause. See Montgomery v. Louisiana, 136 S. Ct. 718, 727–28 (2016); Yates v. Aiken, 484 U.S.
211, 217–18 (1988); Griffith v. Kentucky, 479 U.S> 314, 328 (1987).
Counsel for the State of Arizona, Lacey Gard and Ginger Jarvis, have indicated that they
have no objection to this request.
Mr. Gomez’s time to petition for a Writ of Certiorari in this Court expires on Thursday,
October 28, 2021. Petitioner shows the following good cause in support of this request:
1.

Mr. Gomez’s longtime counsel, David Darby, a solo practitioner, is presently

hospitalized with COVID-19 and has requested that undersigned counsel Mills undertake Mr.
Gomez’s representation at this Court. Mr. Darby has been hospitalized for over a week, and as of
this filing, undersigned is unsure of his current condition, other than that he has been unable to
respond to phone calls and emails.
2.

Although undersigned is expeditiously working to get up to speed on the case, he

is still familiarizing himself with the record and determining how to best raise the issues for this
Court’s attention.
3.

A Petition for Writ of Certiorari is essential as there are a number of federal

constitutional issues that were not properly adjudicated by the Arizona courts and which may have
resulted in a violation of Mr. Gomez’s rights. Undersigned counsel can adequately present these
issues to this Court only upon the receipt of further time to adequately prepare. Accordingly,
counsel respectfully requests that this Court grant an extension.

2

WHEREFORE, undersigned counsel respectfully requests an extension of time of fortysix days within which to file the Petition for Writ of Certiorari, up to and including Monday,
December 13, 2021.
Dated: This the 23rd day of September 2021.
Respectfully submitted,

/s/John Mills
JOHN MILLS
PHILLIPS BLACK, INC.
1721 Broadway, Suite 201
Oakland, CA 94612
j.mills@phillipsblack.org
888-532-0897
COUNSEL FOR PETITIONER

3

INDEX TO APPENDICIES
APPENDIX A

Order, State v. Fabio Evelio Gomez, No. CR2000-090114
(Maricopa County, Ariz. Dec. 5, 2018)

APPENDIX B

Order, State v. Fabio Evelio Gomez, No. CR2000-090114
(Maricopa County, Ariz. Apr. 13, 2020)

APPENDIX C

Order, State of Arizona v. Fabio Evelio Gomez, No. CR-20-0354PC (Ariz. July 30, 2021)

APPENDIX A

Chris DeRose, Clerk of Court
*** Filed *** .

/2--1)5-lf i

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 2000-090114

12/03/2018
CLERK OF THE COURT
S. Beery
Deputy

HONORABLE BRADLEY ASTROWSKY

STATE OF ARIZONA

LAURA PATRICE CHIASSON

V.

FABIO EVELIO GOMEZ (A)

DAVID ALAN DARBY
COURT ADMIN-CRIMINAL-PCR
JUDGE ASTROWSKY
VICTIM WITNESS DIV-AG-CCC

MINUTE ENTRY

The Court has reviewed the defendant's Second Amended Petition for Post-Conviction
Relief (filed 3/13/2018), the State's Response (filed 4/12/2018), and the Defendant.'s Reply (filed
5/24/2018), and the Third Amended Petition (adding an !AC/appellate counsel claim, also
included in Second Amended as Section D), as well as the court file. This is the defendant's first
Rule 32 proceeding following the Arizona Supreme Court's affirmance of his convictions and
death sentences PCR Pleadings.
In his supplemental pleadings, Defendant alleges that • The trial court erred in failing to instruct the jury of his parole ineligibility in
violation of due process;
•

Trial counsel was/were ineffective for failing to request a Simmons instruction
regarding his parole eligibility; and

Docket Code 167

FonnR000A

Page 1

/\ M

~OOn-

I

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 2000-090114
•

12/03/2018

Appellate counsel was ineffective by failing to raise trial counsel's failure to request a
Simmons-Kelly instruction regarding his parole ineligibility.

In Lynch v. Arizona, the United States Supreme Court held in 2016 that "where a capital
defendant's future dangerousness is at issue, and the only sentencing alternative to death
available to the jury is life imprisonment without the possibility of parole/' the Due Process
Clause "entitles the Defendant to inform the jury of [his] parole ineligibility, either by a jury
instruction or in arguments by counsel." Lynch~ 136 S.Ct. at 1818 (2016) (internal citations
omitted).
In addition, quoting Simmons, the decision on which Lynch relies:
But if the State rests its case for imposing the death penalty at least in part on the
premise that the defendant will be dangerous in the future, the fact that the
alternative sentence to death is life without parole will necessarily undercut the
State's argument regarding the threat the defendant poses to society. Because
truthful information of parole ineligibility allows the defendant to "deny or
explain" the showing of future dangerousness, due process plainly requires that he
be allowed to bring it to the jury's attention by way of argument by defense
counsel or an instruction from the court. See Gardner, 430 U.S., at 362, 97 S.Ct.,
at 1206-1207.

Simmons v. South Carolina, 512 U.S. 154, 168-69, 114 S. Ct. 2187, 2196, 129 L. Ed. 2d 133
(1994).
Failing to instruct the jury of his parole ineligibility in violation of due process
.
. Preclusion

Pursuant to Rule 32.6(c), the Court first identifies all claims that are procedurally
precluded from Rule 32 relief. An issue is precluded if it was raised, or could have been raised,
on direct appeal or in prior Rule 32 proceedings. State v. Towery, 204 Ariz. 386, 64 P.3d 828
(2003); Stewart v. Smith, 202 Ariz. 446, 46 P.3d 1067 (2002); State v. Mata, 185 Ariz. 319,334,
916 P.2d 1035 (1996). Pursuant to this authority and Rule 32.2(a), the Court finds the
defendant's claims relating to trial court error to be precluded from relief as it could have been
raised on appeal and has been waived. Rule 32.2(a)(3).
Merits

In the alternative, the Court addresses the merits. First, this Court finds that Defendant
has not established a colorable claim that the State injected "future dangerousness" either as a
Docket Code 167

C

Form ROOOA

Page 2

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 2000-090114

12/03/2018

logical inference from the evidence or by argument. The State never asked his jurors to consider
his future dangerousness. The rationale of Lynch is not applicable here. Thus, a Lynch instruction
was not warranted.
As in the recently-decided decision of State v. Sanders, in addressing the Simmons
instruction issue, the Court reminded that "[i]n a capital case, placing future dangerousness at
issue invites the jury to assess whether the defendant's propensity for violence is so great that
imposing death is the only means to protect society," and then held that "because there are
significant factual differences between Sanders' case and those cases where a defendant's future
dangerousness was at issue, ... trial court's instruction ["eligible for release after serving 35
years"] did not violate Sanders' due process rights." State v. Sanders, 245 Ariz. 113, ,r 18,425
P.3d 1056, 1065 (2018).
In reaching its decision about whether the State placed "future dangerousness" at issue,
the Sanders Court considered:
•

Whether the circumstances surrounding [the] murder suggested that the death penalty
was the only means to protect society. "See Ramos, 463 U.S. at 1003. The record shows
that Sanders committed this murder in the context of a specific domestic situation that
came to a head in the summer of 2009. Specifically, at the time of the murder, Sanders
was living in cramped,_ stressful conditions in his mother's house, where neither Schala
nor _Susan were welcome; Sanders and Susan were chronically unemployed, causing
severe financial distress; Susan had abdicated parenting responsibilities, thrusting
Sanders into the role of the sole responsible parent; and Sanders was suffering from
undiagnosed, untreated PTSD ..... Previously-decided cases before this Court involving
future dangerousness have entailed a random or predatory murder involving a stranger
who had the misfortune of crossing the defendant's path." (State v. Sanders, 245 Ariz.
113, ,r 20,425 P.3d 1056, 1065 (2018));

•

Whether evidence, extrinsic to the murder, showed the defendant's propensity for
violence (Sanders, 245 Ariz. at ,r,r 19, 27-28, 425 P.3d at 1065, 1066); and

•

Whether the State emphasized the brutality of the murder suggested the defendant posed
a danger to society. Citing to "Commonwealth v. Ch171iel, 889 A.2~ 501, 537-38 (Pa.
2005) (finding prosecutor's arguments focusing on the brutality of the murders, and
imposing death as retribution for the inhumanity of the murders, as opposed to
defendant's propensity for violence, did not place future dangerousness at issue)" the
Court determined it did not (Sanders, 245 Ariz. at ,r 30, 425 P.3d at 1066-67).

Docket Code 167

FormR000A

Page3

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 2000-090114

12/03/2018

As in Sanders, the State rebutted Defendant's mitigation not with "future dangerousness'
or prior convictions (of which there appear to have been none); rather, the State argued
Defendant's relationships; his drug use and his parenting decisions:

1 39 The State disputes Gomez's alleged mitigating factors, contending that his family

members and friends from the Dominican Republic had no significant contact with
Gomez in the more than ten years between his move to the United States and Joan's
murder. At the penalty phase, to contradict Gomez's claims that he was a productive
member of society and caring father, the State introduced testimony from the guilt phase
in which Gomez admitted using drugs and said that, on the day of the murder, he had
smoked marijuana before driving with his infant son in a car and had later left the baby
unattended while he engaged in consensual sexual intercourse in another car.
Similar to Sanders, "future dangerousness" was not placed at issue by the State.

Second, even were "future dang~rousness' an issue at the sentencing phase, this Court
finds that Lynch is not retroactive. Defendant's conviction became final in 20121, four years
before Lynch was decided in 2016. As a result, Lynch is not applicable to this case. In O'Dell v.
Netherland, 521 U.S. 151, 167, 117 S.Ct. 1969, 1978 (1997), the United States Supreme Court
held that the rule announced in Simmons v. South Carolina is not a "watershed rule of criminal
procedure," but rather a procedural, non-retroactive rule. O'Dell, 521 U.S. at 167-68. Lynch v.
Arizona, simply applies the rule announced in Simmons v. South Carolina, and so, is neither a
"well-established constitutional principle" nor a "watershed rule of criminal procedure," but is a
procedural, non-retroactive rule. The Court finds that Lynch III does not apply retroactively to
Defendant's case.

Lynch did not expressly resolve whether its holding was procedural, or whether its
holding was substantive and was to be applied retroactively. Arizona courts have adopted and
follow federal retroactivity analyses. State v. Towery, 204 Ariz. 386, 389, 64 P.3d. 828, 831
(2003) (citing Slemmer, 170 Ariz. at 181-82).

1 Appeal

of2001 conviction and 2003 sentencing:

State v. Gomez, 211 Ariz. 494, 496--97,

2-6; 498, 12-17, 123 P.3d 1131, 1133-34; 1135 (2005).
Appeal of2010 death sentence (eligibility & penalty phases:
State v. Gomez, 231 Ariz. 219, 221-22,
1-6, 293 P.3d 495, 497-98(2012).

Docket Code 167

FonnR000A

Page4

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 2000-090114

12/03/2018

Third, Defendant was not p~ejudiced2 by the lack of a Lynch instruction. Even if defense
counsel had requested a Lynch instruction, he would not have been entitled to one in the absence
of any evidence presented regarding Defendant's future dangerousness.
Finally, for reasons set forth in the !AC/trial discussion below, the Court finds that the
trial court's failure to address the life/natural life distinction did not impact the jury's
determination to impose death.
Ineffective Assistance of Counsel (IAC)/trial and appellate:
Failing to request a Simmons instruction regarding parole eligibility
In the next two claims, Defendant alleges that trial and appellate counsel provided
ineffective assistance by failing to request a Simmons instruction.
Counsels' performance is evaluated at the time of trial and not in hindsight. At the time
of Defendant's 2010 trial and his appeal decided in 2012, long-established Arizona precedent
held that Arizona defendants were not entitled to parole unavailability instructions. State v.
Chappell, 225 Ariz. 229,240, if43 (2010); State v. Garcia, 224 Ariz. 1, 18, ,r,r 76-77 (2010);
State v. Hargrave, 225 Ariz. 1, 14, ,r,r 52-53 (2010); State v. Cruz, 218 Ariz. 149, 160, 114~-42
(2008). Accordingly, any request for a Simmons instruction would fail, and counsel was not
ineffective for failing to make a futile request. See State v. Pandeli, 242 Ariz. 175, 185, 394 P.3d
2, 12, ,r 33 (2017) ("Counsel's failure to make a futile motion does not constitute ineffective
assistance of counsel.") (quoting James v. Borg, 24 F .3d 20, 27 (9th Cir. 1994)).

.

r

Further, neither the United States Supreme Court's subsequent decision in Lynch, holding
that Arizona defendants are entitled to instructions under Simmons, nor the Arizona Supreme
Court's decisions in State v. Escalante-Orozco (241 Ariz. 254, 386 P.3d 798 (2017); State v.
Hulsey, 243 Ariz. 367,408 P.3d 408 (2018); and State v. Rushing, 243 Ariz. 212,404 P.3d 240
(2017), cert. denied, 17-1449, 2018 WL 1876897 (U.S. Oct. 1, 2018), retroactively render
counsel's performance ineffective. See Strickland v. Washington, 466 U.S. 668,690 (1984)
(evaluation of counsel's acts or omissions are judged as of the time counsel was required to act).
Counsel's failure to predict Lynch's change to then-established Arizona Supreme Court law was
not objectively unreasonable. See Lowry v. Lewis, 21 F.3d 344,346 (9th Cir. 1994) (finding
counsel was not ineffective because "lawyer cannot be required to anticipate our decision" in a
later case); Bullock v. Carver, 297 F.3d 1036, 1052 (10th Cir. 2002) (rejecting ineffective
assistance claim based upon counsel's failure to predict future changes in the law and stating that

a

Absent specific authority, the Court declines to "presume prejudice" as requested by Defendant. 2nd Amended
Petition, at 2.
Docket Code 167
Form ROOOA
Page 5.
2

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 2000-090114

12/03/2018

"clairvoyance is not a required attribute of effective representation"); Brown v. United States,
311 F.3d 875 (8 th Cir. 2002) (finding no ineffective assistance of counsel for counsel's failure to
raise Apprendi-type issue prior to that decision because such issue was "unsupported by thenexisting precedent ... ").
For the same reasons, appellate counsel was not ineffective for failing to challenge the
lack of a parole ineligibility instruction. Any such challenge would have been rejected under
then-existing Arizona Supreme Court precedent and appellate counsel was not ineffective for
failing to foresee Lynch's future change in the law, especially where the claim was unpreserved
since trial counsel did not request a Simmons instruction.
Finally, Defendant cannot establish prejudice. As previously discussed, counsels' failure
to request a Simmons instruction or challenge its omission on appeal cannot have prejudiced
Defendant because any such effort would have been futile under Arizona Supreme Court
precedent. And finally, Defendant could not show prejudice even if counsel's request for a
Simmons instruction would have been successful. As explained in detail in the Claim above,
there is no reasonable probability that a jury instruction on parole unavailability would have
resulted in life sentence given ( 1) the lack of suggestion of future dangerousness; (2) the lack of
any reference to parole-eligibility or evidence of acceptance of responsibility for the murder; and
(3) the extraordinary weight of the (F)(6) aggravating circumstance when evaluated in
connection with the relatively minimal mitigation. Gomez, at ,r 40.
There is no evidence to support the argument that the jury's unanimous determination to
return a verdict for the Death Penalty was impacted by the variance between "Natural Life" and
"Life". As the Supreme Court found on independent review:
D. Independent Review
,r 31 Because Gomez committed the murder before August 1, 2002, we independently
review his death sentence. See A.R.S. § 13-755(A).
1. Aggravating Circumstances
,r 32 The State alleged that the murder was "especially cruel" for purposes of the (F)(6)
aggravating circumstance. To establish especial cruelty, "the state must prove that 'the
victim consciously experienced physical or mental pain prior to death, and the defendant
knew or should have known that suffering would occur.'" State v. Prince, 226 Ariz. 516,
539 ,r 97,250 P.3d 1145, 1168 (2011) (quoting State v. Snelling, 225 Ariz. 182, 188 ,r 25,
236 P.3d 409,415 (2010)). This Court "'examine[s] the entire murder transaction and not
simply the final act that killed the victim."' Id. (quoting State v. Ellison, 213 Ariz. 116,
142 ,r 119, 140 P.3d 899, 925 (2006)).
Docket Code 167

FonnR000A

Page 6

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
- CR 2000-090114

12/03/2018

,33 The record establishes beyond a reasonable doubt that Joan's murder was especially
cruel. The medical examiner testified that Joan suffered eighteen or more blows to her
head, at least one of which was inflicted with as much force as that caused by a motor
vehicle accident. She also suffered cuts, scrapes, bruises, and bone fractures. Her wounds
suggested that Joan was conscious and moving while being beaten. She had defensive
wounds and grip marks on her arms indicating that she struggled while being held down
with significant force.
, 34 The evidence also indicates that a gag-type ligature was placed around Joan's face
and across her neck. Although Joan usually kept a neat apartment, after the attack, a glass
table top was knocked over and a heavy living room chair displaced. Joan's blood was
found in Gomez's apartment, but not in her own. This evidence suggests Joan was
abducted in her apartment and then beaten to death in Gomez's apartment.
, 35 Gomez argues that especial cruelty was not proven because the medical examiner
could not determine the "sequence of blows, the consciousness of the victim, and the
nature of the bruising" that Gomez inflicted. This argument fails.
, 36 Joan's injuries, her screams, evidence of a struggle in Joan's apartment, and the fact
that she had been gagged all indicate Joan was conscious during part of the attack. Cf
State v. Andriana, 215 Ariz. 497, 511, 66, 161 P.3d 540,554 (2007) (finding cruelty
where "[d]efensive wounds on [the victim's] hands and wrists indicate that he was
conscious for at least some of the attack and thus knew his wife was attacking him"),
abrogated on other grounds by State v. Ferrero, 229 Ariz. 239,274 P.3d 509 (2012).
, 37 Regardless of when Joan lost consciousness as result of the eighteen blows to her
head, the State proved beyond a reasonable doubt that she was conscious for part of the
attack and suffered physically and mentally. The State also proved beyond a reasonable
doubt that Gomez knew or should have known that Joan was suffering physically and
mentally. See, e.g., id (defendant "knew or should have known that beating her husband
with a bar stool would cause him physical pain and mental anguish").
2. Mitigating Circumstances
, 38 At the mitigation phase, Gomez presented testimony from family members and
others who knew him in the Dominican Republic and established that he had a good
upbringing and was treated well by his parents while growing up. During allocution,
Gomez asked for an opportunity to obtain an education and to be rehabilitated. On
appeal, Gomez states that he had no prior criminal record and that he immigrated to the
United States as a s·elf-sufficient professional, sought ways to give back to his adopted
country as a coach for young people, cared about his family and community in the
Dominican Republic, and was raising an infant son.
, 39 The State disputes Gomez's alleged mitigating factors, contending that his family
members and friends from the Dominican Republic had no significant contact ~th
Gomez in the more than ten years between his move to the United States and Joan's
Docket Code 167

FormR000A

Page 7

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
12/03/2018

CR 2000-090114

murder. At the penalty phase, to contradict Gomez's claims that he was a productive
member of society and caring father, the State introduced testimony from the guilt phase
in which Gomez admitted using drugs and said that, on the day of the murder, he had
smoked marijuana before driving with his infant son in a car and had later left the baby
unattended while he engaged in consensual sexual intercourse in another car.
·
1 40 "A defendant's relationship with his or her family and friends may be a mitigating
circumstance, yet the Court has often found that this circumstance should be given little
weight." State v. Tucker, 215 Ariz. 298,3221116, 160 P.3d 177,201 (2007). Similarly,
a defendant's lack of a prior felony conviction "is a mitigating circumstance, but entitled
to little weight." State v. Greene, 192 Ariz. 431,442152, 967 P.2d 106, 117 (1998). The
mitigating circumstances are not substantial. .
3. Propriety of Death Sentence
1 41 We consider the quality and the strength, not simply the number, of aggravating and
mitigating factors. Id. at 443160, 967 P.2d at 118. Gomez kidnapped and sexually
assaulted Joan and brutally bludgeoned her to death. The record does not reflect
~ignificant mitigating circumstances. We conclude that "the mitigation is not sufficiently
substantial to warrant leniency." A.R.S. § 13-755(B).
State v. Gomez, 231 Ariz. 219, 226-27, 1130-41, 293 P.3d 495, 502-03 (2012).

On Independent Review, the Supreme Court upheld the death sentence imposed by the
jury. This Court may not overrule, modify or disregard the Supreme Court's conclusion on
Independent Review that the defendant's mitigation evidence was not sufficiently substantial to
call for leniency. See, State v. Sullivan, 205 Ariz. 285, ~88, 69 P.3d 1006 (App. 2003); Bade v.
Arizona Dept. o/Transp., 150 Ariz. 203,205, 722 P.2d 371 (App. 1986)(lower court has no
authority to overrule or disregard express ruling of Arizona Supreme Court).
CONCLUSION

A colorable claim for post-conviction relief is "one that, if the allegations are true, might
have changed the outcome" of the proceeding. State v. Runningeagle, 176 Ariz. 59, 63, 859 P.2d
169, 173 (1°993); Ariz. R.Crim.P. 32.6(c) ("court shalf order ... petition dismissed" if claims
present no "no material issue of fact or law which would entitle defendant to relief');
32.8(a)(evidentiary hearing required "to determine issue of material fact").
The Court finds that the defendant has failed to raise colorable claims related to the lack
of a Simmons instruction in his Second Amended Petition; specifically, the Court finds no
colorable claim that any error in, failing to give a Lynch III instruction ''contribute[d] to or
Docket Code 167

FormR000A

Page 8

.

'

'

.
SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
·12/03/2018

CR 2000-090114

affect[ed] the verdict or sentence." State v. Henderson, 210 Ariz. 561, 567, 115 P.3d 601,607
(2005) ..
Based on all of the above,
IT IS THERFORE ORDERED dismissing all other claims, and dismissing the Second
Amended Petition.

Docket Code 167

FormR000A

Page9

APPENDIX B

Clerk of the Superior Court
*** Filed***

SUPERIOR COURT OF ARIZONA
MARICOPA COUNTY
CR 2000-090114

04/13/2020
CLERK OF THE COURT
K. Sotello-Stevenson
Deputy

HONORABLE BRADLEY ASTROWSKY

STATE OF ARIZONA

l/-t<./-;;.@O cr:ooA-/Vl

LAURA PATRICE CHIASSON

V.

FABIO EVELIO GOMEZ (A)

DAVID ALAN DARBY
COURT ADMIN-CRIMINAL-PCR
JUDGE ASTROWSKY
VICTIM WITNESS DIV-AG-CCC

MINUTE ENTRY

The Court's December 5, 2018, ruling was intended to resolve all pending Petitions at the
time the ruling was issued. The Court respectfully declines to reconsider that after review of
Defendant's Motion for Rehearing. Accordingly,
IT IS ORDERED clarifying that the Court's December 5, 2018, ruling was intended to

resolve all pending Petitions filed by Defendant before that date; and denying Defendant's
Motion for Rehearing.

~~LE~STROWSKY
JUDGE OF THE SUPERIOR COURT

Docket Code 187

FormR000A

Page 1

APPENDIX C

Supreme Court
STATE OF ARIZONA
ROBERT BRUTINEL
Chief Justice

ARIZONA STATE COURTS BUILDING
1501 WEST WASHINGTON STREET, SUITE 402
PHOENIX, ARIZONA 85007
TELEPHONE: (602) 452-3396

TRACIE K. LINDEMAN
Clerk of the Court

July 30, 2021
RE:

STATE OF ARIZONA v FABIO EVELIO GOMEZ
Arizona Supreme Court No. CR-20-0354-PC
Maricopa County Superior Court No. CR2000-090114

GREETINGS:
The following action was taken by the Supreme Court of the State
of Arizona on July 30, 2021, in regard to the above-referenced
cause:
ORDERED: Fabio Evelio Gomez's Petition for Review = DENIED.
Justice Beene and Justice Montgomery did not participate in the
determination of this matter.

Tracie K. Lindeman, Clerk
TO:
Lacey Stover Gard
Ginger Jarvis
David Alan Darby
Fabio Evelio Gomez, ADOC 177075, Arizona State Prison, Florence
- Eyman Complex-Browning Unit (SMU II)
Dale A Baich
Amy Armstrong
Michele Lawson
ga

